                    July 27, 1999

                    DEBORAH K. WILLHITE
                    SENIOR VICE PRESIDENT, GOVERNMENT RELATIONS

                    AZEEZALY S. JAFFER
                    MANAGER STAMP SERVICES

                    SUBJECT:     Review of the Operations of the Citizens’ Stamp
                                 Advisory Committee - Management Advisory
                                 Report RG-MA-99-005

                    Consistent with our previous efforts to provide proactive
                    feedback to United States Postal Service (USPS)
                    management, we performed a review of the operations of the
                    Citizens’ Stamp Advisory Committee (the Committee). The
                    Committee provides technical advice and assistance to
                    Stamp Services management on stamp subjects and
                    designs. Our review disclosed two issues which, when
                    addressed by Stamp Services’ management, should
                    strengthen the Committee’s operations. This management
                    advisory report summarizes our observations related to these
                    issues and offers several suggestions to improve the overall
                    efficiency of the Committee’s actions.

Results in Brief	   Stamp Services management effectively coordinates the
                    overall operations of the Committee, which is responsible for
                    evaluating the merits of all stamps proposals and selecting
                    subjects that are both interesting and educational. The
                    Committee itself employs no staff but consists of members
                    who volunteer their time and expertise to assist the Postal
                    Service.

                    Based on our observations at two recent meetings, we noted
                    that some improvements could be made to enhance the
                    cohesiveness of the Committee’s efforts and to encourage
                    the collaboration between the Stamp Services management
                    and the Committee’s members. Specifically, we noted that
                    Stamp Services management should maintain additional
                    documentation of the Committee’s operating decisions in
Review of the Operations of the Citizens                                           RG-MA-99-005
 Stamp Advisory Committee


                                order to assure greater consistency and should fill several
                                vacancies on the Committee.

 Background 	                   Stamp subjects typically originate with the general public,
                                who submit thousands of stamp proposals every year. In
                                1957, an independent Committee was established to provide
                                the Postal Service with a breadth of judgement and depth of
                                experience in various matters that influence the subject
                                matter, character, and beauty of postage stamps. In
                                developing a rewarding and historically significant stamp
                                program, the Committee examines the proposals and selects
                                the most promising ideas. The Committee recommends the
                                most interesting and educational ideas to the Postmaster
                                General, who ultimately decides which stamps will be printed.

                                The Committee recommends about 25-40 new
                                commemorative stamp subjects each year, along with
                                numerous ideas for definitive (regular) stamps. The
                                Committee recommends stamp subjects that have the
                                strongest appeal, that reflect public sentiment, and have the
                                greatest historical significance. When recommending
                                subjects, the Committee considers the views of the Postal
                                Service and stamp collectors, as well as the general public.
                                The Committee has published 12 "Stamp Subject Selection
                                Criteria" to help determine subject selection.

                                In order to allow sufficient advance time to evaluate the
                                proposal, design, and print the approved stamps, new
                                stamps are usually recommended about 2-3 years before the
                                proposed date of issuance. The Committee members review
                                and provide guidance on the merits of the proposal. They
                                also develop and refine the design and artwork of the
                                stamps, for both commemorative and definitive stamps.

                                The Committee operates according to established bylaws
                                and Committee members are appointed by the Postmaster
                                General. Currently, there are 12 volunteer Committee
                                members, separated into the Subject and Design
                                Subcommittees, who collectively have a wide range of
                                educational, artistic, historical, and professional expertise.
                                The Committee meets on a quarterly basis and members are
                                eligible for travel reimbursement. Committee meetings are
                                restricted to key representatives of Stamp Services, and their
                                supporting art and research consultants.




                                                      2
                                           Restricted Information
Review of the Operations of the Citizens                                           RG-MA-99-005
 Stamp Advisory Committee


 Objective, Scope,              The overall objective of our review was to examine how new
 and Methodology                stamp proposals are evaluated and whether Committee
                                policy decisions are documented. Specifically, we observed
                                the interaction of the Committee members, Postal Service
                                staff and consultants. We noted the types of issues
                                discussed in order to gain an understanding of the processes
                                and procedures used to recommend subjects and designs for
                                the stamps issued by the USPS.

                                Our review was conducted between October 1998 through
                                May 1999 in accordance with the President’s Council on
                                Integrity and Efficiency, Quality Standards for Inspections.
                                We discussed our conclusions and observations with
                                appropriate management officials and included their
                                comments, where appropriate.

 Observations                   In October 1998 and January 1999, OIG was invited to
                                attend two Committee meetings, including the concurrent
                                meetings of the individual Subject and Design
                                Subcommittees. Based upon observations while attending
                                two meetings and a review of documentation of the
                                Committee’s operations, we identified two improvements that
                                need to be made to improve the effectiveness of the current
                                operations of the Committee. Specifically, Stamp Services
                                management should maintain more comprehensive
                                documentation of the Committee’s decisions and operating
                                policies, and should increase the number of existing
                                Committee members.

 Past Decisions of the          Confidential minutes of each of the Committee’s meetings
 Committee                      are maintained, which summarize the individual stamp
                                proposals discussed and their current status. However,
                                strategic policy decisions arrived at by the Committee were
                                not being recorded. We noted that some disagreements
                                occurred at both meetings we attended when Committee
                                members attempted to recall past policy decisions, some of
                                which had occurred several years earlier. The absence of
                                written documentation, coupled with normal turnover of
                                Committee members, increases the risk of unnecessary
                                frustration, inconsistent decisions, and subsequent criticism
                                of the Committee’s actions.

                                During the meetings we attended, Committee members
                                and Postal Service management officials present at the
                                meetings tried to recall past events and decisions without
                                benefit of any written documentation. Although these

                                                      3
                                           Restricted Information
Review of the Operations of the Citizens                                           RG-MA-99-005
 Stamp Advisory Committee


                                officials usually agreed, their individual interpretation of
                                past decisions sometimes differed which sparked debate as
                                to what had previously been decided. This, in turn,
                                interrupted the current decision-making process. In
                                addition, as Committee members leave and new members
                                are added, historical knowledge of the stamp program and
                                past policy decisions will be lost if the decision information
                                is not systematically saved.

                                Significant issues that were impacted by previous policy
                                decisions include the following:

                                •	 Holiday Commemoratives – The policy specifying how
                                   these special commemoratives are authorized.

                                •	 Recognition of Specific Interests, Sub-Groups and Units
                                   – The policy for not recognizing certain specific sub-
                                   groups and categories, and the rationale for past
                                   deviations from this policy.

                                •	 Availability – The policy on permanent stamp availability
                                   or issuance only one time a year; and regional and
                                   nationwide stamp distribution.

                                •	 Rate Change – The policy concerning stamps that were
                                   originally issued at the old rate and which ones will be
                                   reissued at the new rate.

                                •	 Art Commemoratives – The policy on the use of works of
                                   art or sculpture in public museums and private
                                   collections.

                                By recording these policy decisions as they are occur,
                                management will ensure that future decisions are
                                consistently made with existing policies. In addition, this
                                information will provide a basis for uniform decisions from
                                year to year and any time new members are added.

                                Stamp Services officials advised that they were currently
                                developing an automated stamp profile database that will
                                capture historical data about the design and issuance of
                                future commemorative stamps. This system will likely
                                include stamp information such as:

                                •	 the working title and history of the proposed stamp;
                                •	 its’ major proponents;

                                                      4
                                           Restricted Information
Review of the Operations of the Citizens                                               RG-MA-99-005
 Stamp Advisory Committee


                                •	 the assigned art director, artist and creative team;
                                •	 a brief narrative explaining the stamp design and subject;
                                   and
                                •	 planned and related stamp events.

                                However, this system is primarily intended for internal Postal
                                Service and Committee use and it is geared towards
                                providing information on specific stamps, rather than on
                                strategic policy decisions.

 Vacancies on the               Currently, there are 12 Citizens’ Stamp Advisory Committee
 Committee                      members: 7 who serve on the Subject and 5 on the Design
                                Subcommittees. The Committee is authorized a total of 15
                                members and has had several vacancies since April 1998.

                                The present membership of the Committee reflects a
                                diverse array of backgrounds and life experiences including
                                academia, arts, history, media, sports, engineering,
                                computers, philatelic, teaching, and business executives.
                                The Committee includes three women and one minority
                                member. Several members have served on the Committee
                                for over 20 years, which provides historical perspective and
                                it is indicative of their belief in the valuable contribution that
                                the Committee makes.

                                Stamp Services management carefully considers
                                prospective members for recommendation to the
                                Postmaster General to assure that they compliment the
                                efforts of the existing members and are able to devote
                                sufficient time to the Committee’s work. After observing the
                                efforts of the present members at two recent meetings, we
                                suggest that the current vacancies be filled as soon as
                                possible. Adding new members would:

                                ��help alleviate the workload burden on all of the
                                  members, particularly on the Design Subcommittee,
                                  which has been responsible for designing over 100
                                  stamps in recent years;
                                ��permit additional time to be spent on evaluating and
                                  reviewing proposed designs and subjects; and
                                ��assure that as eventual turnover occurs, historical
                                  knowledge is not lost.

                                Total membership of the Committee should be increased by
                                adding individuals with unique occupational backgrounds
                                and specialized experiences in fields such as financial,

                                                      5
                                           Restricted Information
Review of the Operations of the Citizens                                            RG-MA-99-005
 Stamp Advisory Committee


                                manufacturing, philanthropic, aeronautical, or botanical.
                                These categories have been the subject of recent
                                successful stamps. New members would also inspire
                                design and development of new stamps.

 Suggestions                    We offer the following suggestions to the Senior Vice
                                President, Government Relations and the Manager of
                                Stamp Services:

                                1. Develop and implement a system of recording strategic
                                   stamp policy decisions, in a permanent, readily useable
                                   format, to ensure that decisions are consistently made.

                                2. Increase the present Citizens’ Stamp Advisory
                                   Committee membership by recommending to the
                                   Postmaster General individuals with unique occupational
                                   backgrounds.

 Management                     We have summarized management's response to our
 Response                       suggestions and included the full text of their comments in
                                the Appendix.

                                Regarding the first suggestion, USPS's management stated
                                that minutes of the meetings are recorded and maintained.
                                In addition, management stated that although they refer to
                                the minutes to clarify any issues, subjects, or policies, which
                                may be confusing, they can not mandate the Committee's
                                policy on a given subject nor can they mandate their wishes
                                to change, revise, or rescind a policy or position.

 Evaluation of                  To clarify management’s position on this suggestion, we
 Management                     spoke with Stamp Services management on July 13, 1999.
 Response                       Management confirmed the need to develop and implement
                                a system for recording “Committee’s Positions/Decisions”
                                and to maintain the information in a readily useable format.
                                Beginning with the October 1999 Citizen’s Stamp Advisory
                                Committee meeting, the “Meetings Book” prepared in
                                advance for the meetings will contain a permanent section
                                on the “Committee’s Positions/Decisions.” Based upon our
                                discussion and their written response, management’s
                                comments are responsive to our suggestions.




                                                      6
                                           Restricted Information
Review of the Operations of the Citizens                                          RG-MA-99-005
 Stamp Advisory Committee


 Management 	                   Regarding the second suggestion, management agreed to
 Response 	                     fill existing vacancies in the Citizen’s Stamp Advisory
                                Committee and are continuing to recruit qualified individuals
                                that can meet the demands of the Committee and reflect
                                America’s culture and diversity.

 Evaluation of                  Management’s comments are responsive to our
 Management                     suggestions. We would appreciate if you would continue to
 Response                       advise us of your efforts to fill the vacancies in the
                                Committee.

                                We appreciated the cooperation and courtesies provided by
                                your staff during the review. If you have any questions,
                                please contact                , or me at (703) 248-2300.



                                   //Signed//
                                Sylvia L. Owens
                                Assistant Inspector General
                                 for Revenue Cost Containment

                                Attachment

                                cc: James Tolbert
                                    Alan B. Kiel
                                    John R. Gunnels




                                                      7
                                           Restricted Information
Review of the Operations of the Citizens                            RG-MA-99-005
 Stamp Advisory Committee


Major Contributors to
this Report




                                                      8
                                           Restricted Information
Review of the Operations of the Citizens                            RG-MA-99-005
 Stamp Advisory Committee




                                                      9
                                           Restricted Information
